Office of Material Loss Reviews
Report No. MLR-10-047


Material Loss Review of First Regional Bank,
Los Angeles, California




                                  September 2010
                                      Executive Summary

                                      Material Loss Review of First Regional Bank,
                                      Los Angeles, California
                                                                                     Report No. MLR-10-047
                                                                                            September 2010

Why We Did The Audit

The FDIC Office of Inspector General (OIG) contracted with KPMG LLP (KPMG) to conduct a material
loss review of First Regional Bank (First Regional), Los Angeles, California.

On January 29, 2010, the California Department of Financial Institutions (CA DFI) closed First Regional
and named the FDIC as receiver. On March 1, 2010, the FDIC notified the OIG that First Regional’s
total assets at closing were $2.1 billion and that the estimated loss to the Deposit Insurance Fund (DIF)
was $825.5 million. As of August 20, 2010, the estimated loss had declined to $824.6 million. The OIG
was required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended by the Dodd-
Frank Wall Street Reform and Consumer Protection Act, to conduct a material loss review of First
Regional and retained KPMG for this purpose.

The objectives were to (1) determine the causes of First Regional’s failure and the resulting material loss
to the DIF and (2) evaluate the FDIC’s supervision of the institution, including the FDIC’s
implementation of the Prompt Corrective Action (PCA) provisions of section 38 of the FDI Act.


Background

First Regional was a state nonmember bank that became insured on December 31, 1979, and primarily
operated in Southern California. The bank was wholly-owned, along with six other subsidiaries, by First
Regional Bancorp, a single-bank holding company. First Regional had eight offices; six were in Los
Angeles County, one in Orange County, and one in Ventura County. More than three quarters of the
bank’s total deposits were held in its main office in Los Angeles County. Collectively, the bank’s Board
of Directors (Board) owned approximately 34 percent of the shares outstanding, and one of the senior
officials of the bank owned approximately 30 percent of the shares outstanding.

First Regional’s assets were concentrated in commercial real estate (CRE), with a significant portion of
those loans in the acquisition, development, and construction (ADC) portfolio. The bank significantly
increased its reliance on brokered deposits to fund loan portfolio growth.


Audit Results

Causes of Failure and Material Loss

First Regional’s failure was due to (1) ineffective Board and management oversight, which included weak
risk management practices, violations of laws and regulations, and lack of adherence to some examination
recommendations; (2) high concentrations in CRE and ADC lending; (3) inadequate loan underwriting;
(4) poor credit administration; and (5) increased dependence on brokered deposits as funding sources
during a critical period in 2008. These practices and strategies exposed the bank to substantial risk in
declining market conditions. Loan-related losses were responsible for the depletion of earnings and the




                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                       Material Loss Review of First Regional Bank,
                                       Los Angeles, California
                                                                                        Report No. MLR-10-047
                                                                                               September 2010

erosion of capital. First Regional’s reliance on potentially volatile funding sources led to a liquidity crisis
and the ultimate failure of the institution.

The FDIC’s Supervision of First Regional

Through its supervisory activities, the FDIC identified many of the key risks at First Regional. Concerns
identified by examiners included: poor risk management practices, management’s lack of adherence to
examination recommendations, high concentrations in CRE and ADC lending and with specific
borrowers, inadequate loan underwriting practices, and asset growth funded by brokered deposits. These
concerns were noted by the FDIC and the CA DFI through examinations and supervisory actions from
2005 through 2009. From 2005 until the bank failed in January 2010, the FDIC and the CA DFI
conducted five joint examinations and two limited-scope visitations, and the FDIC conducted off-site
reviews, including daily liquidity monitoring beginning in 2008.

The FDIC relied principally on recommendations to address risk management deficiencies identified by
examiners. Collectively, the FDIC and the CA DFI imposed a Memorandum of Understanding in 2005
and a Cease & Desist Order (C&D) in 2008. However, both actions primarily focused on Bank Secrecy
Act-related issues with risk management deficiencies being addressed in a broad manner. A C&D with
stronger language and more specific safety and soundness provisions requiring affirmative action on the
part of the bank to correct deficiencies was issued in February 2009.

Examiners identified risks, downgraded component and composite ratings, made recommendations, and
took several supervisory actions during the 4 years preceding the failure of First Regional. In retrospect,
it appears that a more timely and stringent supervisory response based on the 2007 examination may have
been called for given (1) the nature and extent of the risks that existed in the bank’s loan portfolio at the
time and (2) management’s lack of acceptance of examiner findings and failure to implement prior
examination recommendations related to those risks. In fairness to examiners, however, such steps may
still not have been effective in prompting needed improvements given management’s history of being
nonresponsive to supervisory authorities.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38. First Regional was unable to solve its liquidity crisis or raise the required
capital, and on January 29, 2010, the CA DFI closed the bank due to failing liquidity, declining capital,
poor and declining asset quality, and insufficient earnings.

Management Response

On August 27, 2010, the FDIC’s Division of Supervision and Consumer Protection (DSC) provided a
written response to a draft of this report. In its response, DSC reiterated the OIG’s conclusions regarding
the causes of First Regional’s failure and cited several supervisory activities, discussed in the report, that
were undertaken to address risks at the institution prior to its failure. In addition, DSC stated that a
financial institution letter was issued in 2009 on The Use of Volatile or Special Funding Sources by
Financial Institutions That Are in a Weakened Condition, to enhance DSC’s supervision of institutions,
such as First Regional, with concentrated CRE/ADC lending and reliance on volatile non-core funding.




                                   To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                   Office of Inspector General




DATE:                                     September 1, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of First Regional Bank,
                                          Los Angeles, California
                                          (Report No. MLR-10-047)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall audit results. The report did not contain
recommendations, thus a response was not required. However, the Division of Supervision and
Consumer Protection provided a written response on August 27, 2010. We incorporated the
response into Part II of the final report.

If you have questions concerning the report, please contact me at (703) 562-6352 or Ann Lewis,
Audit Manager, at (703) 562-6379. We appreciate the courtesies extended to the audit staff.

Attachment

cc: Stan R. Ivie, Regional Director, DSC
    Elaine D. Drapeau, Acting Chief, Office of Internal Control and Review, DSC
    James H. Angel, Jr., Director, OERM
    William S. Haraf, Commissioner, California Department of Financial Institutions
                           Table of Contents

Part I

   Report by KPMG LLP                           I-1
   Material Loss Review, First Regional Bank,
   Los Angeles, California

Part II

   OIG Evaluation of Management Response        II-1

   Corporation Comments                         II-2
      Part I

Report by KPMG LLP
                Material Loss Review
                First Regional Bank
               Los Angeles, California




Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General



KPMG LLP
2001 M Street, NW
Washington, DC
                                Table of Contents
Executive Summary                                                                I-1

Why We Did the Audit                                                             I-3

Background                                                                       I-3

Causes of Failure and Material Loss                                              I-4

  Management and Board Oversight                                                  I-4
  Concentrations in CRE and ADC Lending                                           I-7
  Loan Underwriting                                                             I-11
  Credit Administration                                                         I-11
  Funding Strategy                                                              I-14

The FDIC’s Supervision of First Regional                                        I-15

  Supervisory History                                                           I-16
  Supervisory Response Related to Management and Board Oversight                I-18
  Supervisory Response Related to Loan Concentrations                           I-19
  Supervisory Response Related to Loan Underwriting                             I-22
  Supervisory Response Related to Credit Administration                         I-22
  Supervisory Response Related to First Regional’s Funding Strategy             I-24
  Implementation of PCA                                                         I-25

Appendices                                                                      I-27

  1. Objectives, Scope, and Methodology                                         I-27
  2. Glossary of Terms                                                          I-30
  3. Acronyms                                                                   I-32

Tables

  1. Financial Condition of First Regional, 2006 to 2009                         I-4
  2. First Regional’s Asset Growth, 2005 to 2008                                 I-5
  3. Summary of First Regional’s Apparent Violations of Laws and
     Contraventions with Policy, 2005 to 2009                                    I-6
  4. First Regional’s Total Nonaccrual Loans and Leases, Loans and Leases
     30 to 89 Days Past Due, and Other Real Estate Owned, 2005 to 2009          I-10
  5. First Regional’s Examination History, March 2005 to July 2009              I-16
  6. Supervisory Responses to First Regional’s CRE and ADC
     Concentrations, 2005 to 2008                                               I-20
  7. First Regional’s Deposits and FHLB Borrowings, Years Ending 2005 to 2009   I-24
  8. PCA Capital Categories for First Regional, 2005 to 2009                    I-25
Figures

  1. First Regional’s ADC Concentration as a Percentage of Total Capital
     Compared to Peer Group, 2005 to 2009                                    I-8
  2. First Regional’s Loan Mix, 2005 to 2009                                 I-9
  3. First Regional’s ALLL, Years Ending 2006 to 2009                      I-13
  4. First Regional’s Net Non-core Funding Dependency Ratio Compared to
     Peer Group, Years Ending 2005 to 2009                                 I-14
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389



September 1, 2010

Executive Summary


Stephen M. Beard
Assistant Inspector General for Material Loss Reviews
Federal Deposit Insurance Corporation
3501 North Fairfax Drive
Arlington, VA 22226

Material Loss Review Report for First Regional Bank, Los Angeles, California

Dear Mr. Beard:

This report represents the results of our work conducted to address the performance audit
objectives relative to the Material Loss Review for First Regional Bank (First Regional or the
Bank), Los Angeles, California. The objectives of this performance audit were to (1) determine
the causes of First Regional’s failure and the resulting material loss to the Deposit Insurance
Fund (DIF) and (2) evaluate the FDIC’s supervision of First Regional, including the FDIC’s
implementation of the Prompt Corrective Action (PCA) provisions of section 38.
Causes of Failure
First Regional’s failure was due to (1) ineffective Board of Directors (Board) and management
oversight, which included weak risk management practices, violations of laws and regulations,
and lack of adherence to some examination recommendations; (2) high concentrations in
Commercial Real Estate (CRE) and Acquisition, Development, and Construction (ADC) lending;
(3) inadequate loan underwriting; (4) poor credit administration; and (5) increased dependence
on brokered deposits as funding sources during a critical period in 2008. These practices and
strategies exposed the Bank to substantial risk in declining market conditions. Further, loan-
related losses were responsible for the depletion of earnings and the erosion of capital. First
Regional’s reliance on potentially volatile funding sources led to a liquidity crisis and the
ultimate failure of the institution.

Evaluation of Supervision

Through its supervisory activities, the FDIC identified many of the key risks at First Regional.
Concerns identified by examiners included: poor risk management practices, management’s lack
of adherence to examination recommendations, high concentrations in CRE and ADC lending
and with specific borrowers, inadequate loan underwriting practices, and asset growth funded by
brokered deposits. These concerns were noted by the FDIC and the California Department of
Financial Institutions (CA DFI) through examinations and supervisory actions from 2005
through 2009. From 2005 until the Bank failed in January 2010, the FDIC and the CA DFI
                                                                                              I-1


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
conducted five joint examinations and two limited-scope visitations, and the FDIC conducted
off-site reviews, including daily liquidity monitoring beginning in 2008.

The FDIC relied principally on recommendations to address risk management deficiencies
identified by examiners. Collectively, the FDIC and the CA DFI imposed a Memorandum of
Understanding (MOU) in 2005 and a Cease and Desist Order (C&D) in 2008. However, both
actions primarily focused on Bank Secrecy Act (BSA)-related issues with risk management
deficiencies being addressed in a broad manner. A C&D with stronger language and more
specific safety and soundness provisions requiring affirmative action on the part of the Bank to
correct deficiencies was issued in February 2009.

Examiners identified risks, downgraded component and composite ratings, made
recommendations, and took several supervisory actions during the 4 years preceding the failure
of First Regional. In retrospect, it appears that a more timely and stringent supervisory response
based on the 2007 examination may have been called for given (l) the nature and extent of the
risks that existed in the Bank’s loan portfolio at the time and (2) management’s lack of
acceptance of examiner findings and failure to implement prior examination recommendations
related to those risks. Still, such steps may not have been effective in prompting needed
improvements, given management’s history of inattentiveness to recommendations and
noncompliance with supervisory action requirements.

Prompt Corrective Action

The purpose of PCA is to resolve problems of insured depository institutions at the least possible
long-term cost to the DIF. Part 325 implements PCA requirements by establishing a framework
for taking prompt corrective action against insured state-chartered nonmember banks that are not
adequately capitalized. The FDIC is required to closely monitor the institution’s compliance with
its capital restoration plan, mandatory restrictions defined under section 38(e) of the FDI Act,
and discretionary safeguards imposed by the FDIC (if any) to determine if the purposes of PCA
are being achieved. Based on the supervisory actions taken with respect to First Regional, we
determined that the FDIC properly implemented applicable PCA provisions of section 38 of the
FDI Act.

We conducted our performance audit in accordance with Generally Accepted Government
Auditing Standards (GAGAS). Those standards require that we plan and perform the
performance audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

The information included in this report was obtained during our fieldwork, which occurred from
May 2010 to August 2010.

Very truly yours,




                                                                                                I-2
Why We Did the Audit
On January 29, 2010, the CA DFI closed First Regional and named the FDIC as receiver. On
March 1, 2010, the FDIC notified the Office of Inspector General (OIG) that First Regional’s
total assets at closing were $2.1 billion and the estimated loss to the DIF was $825.5 million. As
of August 20, 2010, the estimated loss to the DIF had decreased to $824.6 million. The estimated
loss exceeds the $200 million threshold for losses occurring between January 1, 2010 and
December 31, 2011, as established by the Dodd-Frank Wall Street Reform and Consumer
Protection Act (Financial Reform Act), signed into law July 21, 2010. The OIG was required by
section 38(k) of the Federal Deposit Insurance (FDI) Act, as amended by the Financial Reform
Act, to conduct a material loss review of the failure of First Regional, and retained KPMG LLP
(KPMG) for this purpose.1

The audit objectives were to (1) determine the causes of First Regional’s failure and the resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of First Regional, including the
FDIC’s implementation of the PCA provisions of section 38.

Background
First Regional was established in Los Angeles, California as a state nonmember bank that
became insured on December 31, 1979 and primarily operated in Southern California. The Bank
was wholly-owned, along with six other subsidiaries, by First Regional Bancorp, a single-bank
holding company. The Bank’s wholly-owned subsidiary, Trust Administration Services
Corporation, provided administrative services for self-directed retirement plans until the
functions were shifted to the Bank’s Trust Administration Department on August 31, 2006.
Collectively the Board owned approximately 34 percent of the shares outstanding, and one of the
senior officials owned approximately 30 percent of the shares outstanding.2

First Regional had eight offices; six were in Los Angeles County, one in Orange County, and one
in Ventura County. More than three quarters of the Bank’s total deposits were held in its main
office in Los Angeles County. The Bank operated in competitive markets and its deposit market
share was minimal (less than 1 percent) in each county where it operated.3 Employment in the
Bank’s primary market areas of Los Angeles and Orange counties weakened, declining more
than 4 percent in the third quarter 2009 from the previous year. Unemployment rates of
11.1 percent put these markets at an all-time high since data was first collected in the 1980s.
Conditions also continued to be weak in the housing market across the state of California.




1
  In conducting this performance audit and preparing this report, KPMG relied primarily on information provided by
the FDIC OIG and the Division of Supervision and Consumer Protection (DSC). Appendix I, Objective, Scope and
Methodology, describes in greater detail the procedures used by KPMG.
2
  DSC Supervisory History written in late 2009 prior to First Regional’s failure.
3
  Deposit data is as of June 30, 2009 from the FDIC Summary of Deposits.
                                                                                                               I-3
First Regional’s assets were concentrated in CRE, with a significant portion of those loans in the
ADC portfolio. Further, the Bank significantly increased its reliance on brokered deposits to fund
loan portfolio growth.

Table 1 provides details on First Regional’s financial condition as of December 2009, and for the
3 preceding calendar years.

Table 1: Financial Condition of First Regional, 2006 to 2009
            Financial Measure                     Dec-09              Dec-08         Dec-07      Dec-06
Total Assets ($000s)                              2,082,684           2,459,748     2,170,753   2,072,523
Total Loans ($000s)                               1,944,151           2,333,815     2,055,106   1,833,113
ADC as a Percentage of Total Loans                    32.94               40.89         49.36       40.07
CRE as a Percentage of Total Loans                    89.32               88.99         92.90       87.04
ALLL* ($000s)                                        66,522              61,336        22,771      20,624
Total Deposits ($000s)                            1,664,450           2,150,888     1,740,337   1,628,965
Core Deposits** ($000s)                           1,271,192           1,764,234     1,577,236   1,506,141
Time Deposits over $100,000 ($000s)                 393,259             386,653       163,101     122,823
Net Income (Loss) ($000s)                          (120,665)x           (16,822)x     x42,410     x46,656
Source: Uniform Bank Performance Reports (UBPR) for First Regional.
* Allowance for Loan and Lease Losses.
** Time Deposits under $100,000 are included in Core Deposits.


Causes of Failure and Material Loss
First Regional’s failure was due to (1) ineffective Board and management oversight, which
included weak risk management practices, violations of laws and regulations, and lack of
adherence to some examination recommendations; (2) high concentrations in CRE and ADC
lending; (3) inadequate loan underwriting; (4) poor credit administration; and (5) increased
dependence on brokered deposits as funding sources during a critical period in 2008. These
practices and strategies exposed the Bank to substantial risk in declining market conditions.
Further, loan-related losses were responsible for the depletion of earnings and the erosion of
capital. First Regional’s reliance on potentially volatile funding sources led to a liquidity crisis
and the ultimate failure of the institution.

Management and Board Oversight

Risk Management Practices and Strategies

From 2005 through 2009, First Regional’s management exhibited risky practices that included
policies allowing excessive concentrations in CRE and ADC lending and in specific borrowers
and their entities, as well as out-of-area lending within the ADC portfolio. Other significant
issues included lax underwriting standards when the risk of the loan portfolio should have
prescribed more conservative standards, credit administration deficiencies that included an
underfunded ALLL and a lack of timely recognition of problem credits, and a funding strategy
for the Bank’s asset growth that was largely dependent on non-core deposits that were
unsustainable after the Bank’s capital levels declined. Details regarding the impact of these
practices and strategies are discussed in subsequent sections of this report.
                                                                                                            I-4
At the 2008 examination, the examiners noted management’s decision to continue to concentrate
on a CRE loan portfolio, especially real estate construction and development, in order to
maintain higher yields and offset the Bank’s higher cost of funds. Moreover, the examiners noted
that the downturn in the real estate market resulted in significant losses and risks to the Bank,
depleted the current year’s earnings, and would have an impact on future earnings and capital.

Examiners at the July 2009 joint examination noted that Board management and oversight were
critically deficient and that the Board’s desire for growth resulted in concentrations in
speculative real estate lending and accounted for the Bank’s weakened condition. Further, there
were loan losses and lost income suffered with the deterioration of the real estate market, a
situation that was unprecedented in management’s experience.

Table 2 shows First Regional’s asset growth from 2005 through 2008. The most critical growth
took place in 2008, which added to an already high concentration in CRE lending, and occurred
during a period when the real estate market was deteriorating.

Table 2: First Regional’s Asset Growth, 2005 to 2008
       Date        Total Assets ($000s)       Percent change
    12/31/2005         $1,695,864                   N/A
    12/31/2006         $1,943,835                 14.62%
    12/31/2007         $2,064,491                  6.21%
    12/31/2008         $2,341,554                 13.42%
Source: UBPRs for First Regional.


Examiners at the July 2009 joint examination also noted that the Board and management
implemented an aggressive lending policy, including high advance rates and out-of-area lending,
which continued well beyond the time when other financial institutions had stopped that type of
lending due to deteriorations in the market. Further, the Bank could not fund its growth through
traditional core deposits, and the Board chose to continue to lend and fund construction projects
with brokered deposits in 2008. The inability to solicit or renew the excessive level of brokered
deposits led to First Regional’s liquidity crisis.4

Violations of Laws and Contraventions with Policy

In examinations conducted in the last several years prior to First Regional’s failure, the
regulators noted several apparent violations of banking laws and contraventions with policy.
Table 3 provides a summary of those violations and contraventions related to safety and
soundness noted by examiners from 2005 until the last examination in July 2009.




4
 As of the June 2008 examination, First Regional’s capital level fell to Adequately Capitalized. This requires the
FDIC to take certain mandatory actions, including imposing restrictions on obtaining new or rolling over existing
brokered deposits.
                                                                                                                     I-5
Table 3: Summary of First Regional’s Apparent Violations of Laws and Contraventions
         with Policy, 2005 to 2009
                                                                                                                         Examination Date
  Applicable Laws, Rules, and Regulations                               Description
                                                                                                                July-09 June-08 April-07 March-06 March-05
FDIC Rules and Regulations Section 365.2(a)      Each insured State nonmember bank shall adopt and
                                                 maintain written policies that establish appropriate
                                                 limits and standards for extensions of credit that are
                                                 secured by liens on or interest in real estate, or that are
                                                                                                                                                     x
                                                 made for the purpose of financing permanent
                                                 improvements to real estate.
FDIC Rules and Regulations Section 365           The institution should monitor conditions in the real
Appendix A                                       estate markets in its lending area so that in can react
                                                 quickly to changes in market conditions that are
                                                                                                                          x                x         x
                                                 relevant to its lending decisions.
FDIC Rules and Regulations Part 326.8 c(1)       All insured nonmember banks shall establish and
                                                 maintain procedures reasonably designed to assure
                                                 and monitor compliance with the requirements
                                                 promulgated by 31 CFR Part 103 of the U.S. Treasury
                                                 Financial Recordkeeping Regulations. In addition, the                    x        x       x
                                                 compliance program shall, at a minimum, provide a
                                                 system of internal control to assure ongoing
                                                 compliance.
U.S. Treasury Financial Recordkeeping            Requires financial institutions to conduct record
Regulations Section 31 C.F.R. 103.100(b)(2)(i)   searches expeditiously when they receive a request                                x       x
                                                 from the Financial Crimes Enforcement Network.
FDIC Rules and Regulations Part 323.3(a)(7)      States that appraisals are required for real estate
                                                 related transactions, including transactions involving
                                                 extensions of credit, unless there has been no obvious                   x
                                                 change in the material change in market conditions.

FDIC Rules and Regulations Part 323.3(b)         In transactions that do not require the services of a
                                                 state certified or licensed appraiser, the institution shall
                                                 obtain an appropriate evaluation of real property                x       x
                                                 collateral that is consistent with safe and sound
                                                 banking practices.
FDIC Rules and Regulations Part 364.101,         States that each institution should establish and
Appendix A                                       maintain prudent underwriting practices that: are
                                                 commensurate with the types of loans the institution
                                                 will make and considers terms and conditions under
                                                 which they will be made; take adequate account of                x       x
                                                 concentration of credit risk; and are appropriate to the
                                                 size of the institution and the nature and scope of its
                                                 activities.
Source: Reports of Examination (ROE) for First Regional.

Overall, the extent and repetition of some of these violations and contraventions provide further
evidence of First Regional’s inadequate management and Board oversight that led to the failure
of the Bank.

Inadequate Response to Recommendations and Supervisory Actions

In addition to the Bank’s regulatory violations, there were examination recommendations and
supervisory action requirements that were not fully adhered to by First Regional management.

For example, there were repeated examination recommendations to reduce individual borrower
concentrations. The March 2006 joint examination noted that two individual borrowers exceeded
the Bank’s policy limit of 100 percent of Tier 1 Capital plus the ALLL at year-end 2005, yet the
Bank continued to lend to these borrowers. It appeared that bank management had chosen to
ignore not only the Bank’s policies, but also regulatory guidance. In addition, at the subsequent
joint examination in 2007, examiners noted that the Board failed to ensure that the Bank
substantially complied with the outstanding requirements of the MOU that was effective in

                                                                                                                                                         I-6
September 2005. Further, examiners noted that the Board had disregarded examiners’
recommendations related to diversification of risk, which is one of the basic tenets of banking.

Examiners at the June 2008 examination noted that management continued to ignore
examination findings related to the reduction of individual borrower concentrations and the
practice of avoiding personal guarantees to remain within the Bank’s legal lending limit. At the
final joint examination in July 2009, examiners noted that the Board did not address regulatory
concerns expressed during prior examinations regarding the Bank’s concentrated risk in CRE.

Concentrations in CRE and ADC Lending

Concentrations in CRE and ADC lending played a significant role in the quality and composition
of First Regional’s assets and the Bank’s growth from 2005 to 2009. At the March 2005 joint
examination, the Bank’s concentration in CRE equaled 855 percent of Tier 1 Capital plus the
ALLL. The examination also noted significant borrower concentrations. For example, there were
two concentrations related to limited liability companies that were created and managed by two
different borrowers. Each affiliated relationship exceeded 100 percent of Tier 1 Capital plus the
ALLL. Despite recommendations in prior ROEs, the Bank had not established limits for its real
estate concentrations of credit, as required by Part 365 – Real Estate Lending Standards, as
previously illustrated in Table 3.

Examiners at the March 2006 examination noted that prior concerns regarding high
concentration levels and inadequate monitoring of those concentrations were magnified as
concentration levels increased even further without commensurate improvements in monitoring
systems or the establishment of adequate controls or limits. Examiners also noted that the Bank’s
total assets had more than tripled in a 3-year period. The growth had been almost exclusively
centered in CRE loans, and in particular, multi-family residential loans, and the inadequate
diversification in the loan portfolio posed increased risk to the Bank.

The December 12, 2006, joint guidance5 titled, Concentrations in Commercial Real Estate
Lending, Sound Risk Management Practices (Joint Guidance) does not establish specific CRE
lending limits, but defines criteria to identify institutions potentially exposed to significant CRE
concentration risk. According to the Joint Guidance, a bank that has experienced rapid growth in
CRE lending, has notable exposure to a specific type of CRE, or is approaching or exceeds the
following supervisory criteria, may be identified for further supervisory analysis of the level and
nature of its CRE concentration risk:

        Total reported loans for construction, land development, and other land (referred to in
         this report as ADC) representing 100 percent or more of Total Capital; or
        Total CRE loans representing 300 percent or more of Total Capital where the
         outstanding balance of the institution’s CRE loan portfolio has increased by 50 percent
         or more during the prior 36 months.


5
 The guidance was issued jointly by the Office of the Comptroller of the Currency, the Board of Governors of the
Federal Reserve System, and the FDIC (collectively referred to as “the agencies” in the guidance).
                                                                                                               I-7
Figure 1 shows First Regional’s ADC concentration levels as a percentage of Total Capital
compared to its peer group6 from 2005 to 2009. As represented, the concentration level exceeded
the supervisory criteria of 100 percent since 2005 and, more importantly, after the Joint
Guidance was issued.

Figure 1: First Regional’s ADC Concentration as a Percentage of Total Capital Compared
          to Peer Group, 2005 to 2009

     500%
     450%
     400%
     350%
     300%
     250%
     200%
     150%
     100%
       50%
        0%
                   2005             2006               2007              2008              2009

                                             First Regional            Peer
Source: UBPRs for First Regional.
Note: The concentration level at year-end 2009 was largely due to a substantial decrease in First Regional’s capital level.

CRE concentration levels were also high in comparison to the Bank’s peer group. From 2005
through 2008, CRE concentration levels ranged from 623 percent to 840 percent, respectively, as
a percentage of Total Capital, while the peer group concentration level ranged from 359 percent
to 420 percent during the same timeframe.

Examiners at the April 2007 joint examination noted that the Bank extended various loans to the
two aforementioned borrowers and limited liability entities controlled by them, which, when
combined, totaled $288.7 million and represented 122 percent of Tier 1 Capital plus the ALLL.
Examiners noted the need for management to reduce the exposure from these large credit
relationships and to diversify its loan portfolio. Examiners further noted that the risk of the
concentration in apartment conversion projects managed by one of the borrowers was highly
vulnerable to deterioration in the residential real estate market. The total CRE concentration
grew 6 percent from the prior 2006 examination to more than $1.5 billion, and property
concentrations in multi-family and condominiums represented approximately $569 million and
$428 million, respectively.

Figure 2 illustrates the changing composition of First Regional’s loan portfolio and the increase
in higher-risk ADC and CRE loans, particularly in 2007 and 2008.
6
    First Regional’s peer group included all commercial banks having assets between $1 billion and $3 billion.
                                                                                                                              I-8
Figure 2: First Regional’s Loan Mix, 2005 to 2009

                              2,500

                                                                                   $404

                              2,000                                    $285
                                                                                           $317
       Loan Mix ($Millions)




                                                       $245
                                                                                   $521
                                        $207                           $430
                              1,500                                                        $419
                                                       $591
                                                                       $333        $459
                                       $899
                              1,000                    $270
                                                                                           $570




                                                                      $1,014       $954
                               500     $316
                                                       $734
                                                                                           $640

                                       $291

                                 0
                                      2005          2006            2007          2008    2009
                                                                  Year-end
                                               Other loans
                                               Multi-family
                                               CRE - Nonfarm/Nonresidential
                                               Construction & Development (ADC)


Source: Call Reports for First Regional.


Examiners at the June 2008 joint examination noted that the volume of adversely classified
assets had dramatically increased from $1.3 million during the prior examination, or 0.5 percent
of Tier 1 Capital plus the ALLL, to $218.3 million, or 79.2 percent, respectively. CRE loan
concentrations represented 1,119 percent of Tier 1 Capital plus the ALLL. This was a substantial
increase from the 681 percent level identified at the prior examination. Condominium conversion
and construction represented the largest CRE concentration at 285 percent of Tier 1 Capital plus
the ALLL. Borrower concentrations represented 120 percent of Tier 1 Capital plus the ALLL,
and included one of the previously-mentioned borrowers whose loans were now adversely
classified and represented 36 percent of Tier 1 Capital plus the ALLL.

In the 2008 ROE, examiners noted that while monitoring of the CRE concentrations appeared to
be adequate, the level of concentrations was a concern given the market conditions. Examiners
further noted that asset quality had continued to deteriorate and was unsatisfactory. Adverse
classifications were considered severe and were concentrated in the CRE portfolio, particularly
in the financing of speculative real estate acquisition and development projects. In the section of


                                                                                                  I-9
the ROE that addresses items subject to adverse classification, examiners noted problem loans in
the Bank’s out-of-area lending, including properties in Florida and Nevada.

Examiners at the July 2009 joint examination noted that asset quality was severely deficient, as
the Bank’s level of non-performing loans and the risks within the loan portfolio had dramatically
increased. As of June 30, 2009, adversely classified items totaled $534.9 million, or
195.24 percent of Tier 1 Capital plus the ALLL, as compared to $218.3 million or 79.23 percent,
respectively, at the prior examination. Further, one of the previously-mentioned borrowers
showed financial weakness; $97 million in classified assets related to this borrower were noted at
the examination, representing about 63 percent of First Regional’s relationship with this
borrower. Examiners also noted that the Bank’s high-risk lending strategy resulted in CRE
concentrations that led to high levels of classified assets and losses in a deteriorating real estate
market.

Table 4 summarizes First Regional’s loan portfolio deterioration from 2005 through 2009.

Table 4: First Regional’s Total Nonaccrual Loans and Leases, Loans and Leases
         30 to 89 Days Past Due, and Other Real Estate Owned, 2005 to 2009
                          Total
                                              Loans and Leases
                      Nonaccrual
     Year                                        30-89 Days                     Other Real Estate
                       Loans and
    Ended                                         Past Due                           Owned
                         Leases
                                                (thousands)                       (thousands)
                      (thousands)
     2009               $350,584                       $55,599                           $70,245
     2008                $92,517                      $112,788                            $9,611
     2007                  $2,000                      $21,440                                $0
     2006                      $0                        $500                                 $0
     2005                  $2,195                       $1,786                                $0
Source: UBPRs for First Regional.


As illustrated above, of particular note are total nonaccrual7 loans that climbed from $2.0 million
in 2007, to $92.5 million in 2008, to more than $350 million by year-end 2009.

As discussed in the Joint Guidance, rising CRE concentrations could expose institutions to
unanticipated earnings and capital volatility in the event of adverse changes in the general CRE
market. Indeed, it appears that adverse changes in the economy coupled with First Regional’s
elevated risk exposure to CRE lending had a negative impact on the Bank’s capital as a result of
increased charge-offs and increased loan loss provisions.




7
  An asset is to be reported as being in nonaccrual status if: (1) it is maintained on a cash basis because of deterioration in the
financial condition of the borrower, (2) payment in full of principal or interest is not expected, or (3) principal or interest has been
in default for a period of 90 days or more unless the asset is both well secured and in the process of collection.
(Source: FDIC Schedule RC-N – Past Due and Nonaccrual Loans, Leases, and other Assets)
                                                                                                                                  I-10
Loan Underwriting

Inadequate underwriting standards at First Regional increased the risk associated with the CRE
concentration and contributed to deteriorating asset quality starting in 2008, but the underwriting
issues were evident at earlier examinations. As early as 2005, examiners noted concerns
regarding the Bank’s underwriting and collateral review practices. Examiners at the March 2006
examination noted that due to underwriting weaknesses in several of the credits in the large
borrower relationships, the principal could easily walk away from any of the projects without
much loss should the real estate market suffer a downturn.

Examiners at the April 2007 examination continued to note inadequate underwriting and that, in
some cases, the Bank did not obtain personal guarantees for both unsecured and secured debts.
Examiners also noted that not taking personal guarantees from the principals on the credits from
the two large borrower relationships was an unsafe and unsound practice. Further, examiners
noted that credit approval memoranda lacked discussion of the project being financed and a
detailed analysis of debt servicing given that the properties exhibited insufficient cash flow.

At the June 2008 examination, asset quality had significantly deteriorated with the declining
economy and poorly performing loans, largely due to high CRE concentrations and the effect of
poor underwriting practices. Examiners noted that many of the loans that had been adversely
classified were underwritten with underlying properties that had insufficient cash flow to service
the debt and marginal collateral support. A significant weakness cited at this examination was
the practice of renewing or extending CRE credits in locations suffering considerable market
deterioration without obtaining appropriate collateral evaluations or appraisals. Other
weaknesses noted by examiners included inadequate credit analysis, outdated cash flows/rent
rolls, and stale financial statements.

At the July 2009 final joint examination, examiners noted that collateral evaluation practices
continued to be deficient, which resulted in a number of apparent violations, as shown earlier in
Table 3.

Credit Administration

Credit administration deficiencies also played a role in the asset quality problems at First
Regional as well as impacted capital and earnings, particularly in the later stages of the
institution. Examiners at the March 2005 joint examination noted that the Bank’s appraisal
reviewer did not have prior experience or formal training in evaluating appraisals. Examiners
noted that during a discussion between the examiner and the appraisal reviewer in regard to a
specific appraisal, the appraisal reviewer was unable to answer the examiner’s questions.

At the March 2006 joint examination, examiners considered management’s methodology for
determining an adequate ALLL level to be satisfactory. However, the downgrade to Special
Mention of a substantial portion of loans associated with the two large borrower relationships
had resulted in an inadequate ALLL reserve. In addition, during the examination, the Bank
charged off two loans totaling $941,000, which increased the reserve shortfall to $4.3 million.
                                                                                                I-11
Further, examiners noted that concerns regarding high concentration levels and inadequate
underwriting guidelines were magnified as underwriting standards eased and concentration levels
increased without commensurate improvement in a risk monitoring system. In reference to eased
standards, examiners noted that bank policy required a minimum loan-to-value (LTV) limit of
80 percent, which was not excessive by itself, but when combined with the lack of requirement
for a guarantee by the borrower/developer, this LTV limit increased the risk profile of the bank.

Examiners at the April 2007 joint examination noted that the ALLL was appropriately funded;
however, the ALLL methodology was not in compliance with the December 2006 Interagency
Policy Statement on the Allowance for Loan and Lease Losses (Policy Statement on ALLL).
Examiners further noted that a key factor preventing compliance and impeding finalization of
First Regional’s new ALLL analysis program was the Bank’s failure to evaluate a loss estimation
model before it was employed in the ALLL analysis, as required by the new guidance.

Examiners at the June 2008 joint examination noted that credit administration and risk
identification practices were weak and warranted immediate strengthening. Further, 11 credits
were downgraded by examiners at this examination, and several other credits that management
downgraded just prior to the examination did not appear to have been properly risk-rated in a
timely manner. Examiners noted that although the Bank’s methodology for determining the
ALLL was generally appropriate, the reserve was underfunded by $10.8 million as of June 30,
2008. This was primarily due to the significant credit quality downgrades, as well as deficiencies
in calculating reserve factors under Statement of Financial Accounting Standards (FAS)
No. 114.8

Figure 3 illustrates that First Regional’s ALLL increased almost $38 million from year-end 2007
to year-end 2008 to a total of more than $61 million. Additionally, First Regional’s total ALLL
compared to total loans and leases represented 1.1 percent in 2007, which was lower than the
Bank’s peer group, but grew to 2.63 percent in 2008, which outpaced the peer group level of
1.59 percent.




8
    FAS No. 114 addresses the accounting by creditors for impairment of certain loans.
                                                                                              I-12
Figure 3: First Regional’s ALLL, Years Ending 2006 to 2009

                         $70

                         $60

                         $50
    ALLL (in Millions)




                         $40

                         $30

                         $20

                         $10

                         $0
                               2006        2007               2008                2009
Source: UBPRs for First Regional.


Accelerated asset quality problems were detected by examiners at the July 2009 joint
examination. Examiners noted that the Bank’s ALLL was not maintained at an appropriate level
in accordance with Generally Accepted Accounting Principles (GAAP) to cover estimated credit
losses on individually evaluated loans that were impaired and estimated credit losses inherent in
the remaining portfolio. Examiners determined that the ALLL was underfunded by a minimum
of $69 million as of June 30, 2009, based on the available and relevant information they were
provided during the credit review.

Examiners further noted at the July 2009 examination that credit administration and risk
identification practices continued to be weak and needed improvement. Fourteen internally-rated
acceptable credits, totaling $162.4 million, were downgraded by examiners at this examination.
In three of those credits, management learned of significantly increased risk in the collection
prior to the examination but failed to downgrade these credits in a timely manner. In addition,
management had been slow in recognizing deterioration in previously identified problem credits.
Other credit administration weaknesses included deficient credit memorandum information,
troubled debt restructure reporting, and Regulation O9 documentation.

Additionally, examiners noted that earnings had been depleted by the high level of provision
expense required to fund the ALLL and that capital levels were eroded by the year-to-date losses
and were insufficient to support the heightened level of risk. The prospects for improvement at
the time did not look favorable as the ALLL level was also expected to remain high with a
continued decline in credit quality and the further declines in the values of real estate collateral.

9
    Regulation O limits the amount of credit that member banks may extend to their own executive officers.
                                                                                                             I-13
Funding Strategy

First Regional primarily used core funding sources to support growth through 2007. Examiners
at the June 2008 examination noted that brokered deposits represented $8 million as of
March 31, 2008. At year-end 2008, brokered deposits represented approximately $650 million,
which illustrated a dramatic shift in First Regional’s funding strategy.

Figure 4 shows that First Regional had a less significant reliance on non-core deposits than its
peers through 2007, but the reliance increased dramatically in 2008 as the net non-core funding
dependency ratio increased from approximately 15 percent in 2007 to 43 percent at year-end
2008.

Figure 4: First Regional’s Net Non-core Funding Dependency Ratio Compared to Peer
          Group, Years Ending 2005 to 2009

     50%
     45%
     40%
     35%
     30%
     25%
     20%
     15%
     10%
      5%
      0%
                2005            2006                2007         2008      2009

                                         FRB        Peer Group

Source: UBPRs for First Regional, as of year-end.


First Regional’s asset growth in 2008, funded by an increasing proportion of non-core deposits in
the midst of a deteriorating economy and declining asset quality, put the Bank in a liquidity
position that was difficult to maintain given restrictions in replacing those funding sources as a
result of the Bank’s capital category for purposes of PCA provisions.10 Examiners at the
June 2008 joint examination noted that deteriorated earnings performance and diminished capital
ratios dictated the need for more stringent funds management practices. Additionally, liquidity
was maintained at a high cost, and the Bank relied on non-core funding sources that could
potentially become unavailable if the Bank continued to experience a weakened capital position.

First Regional also used an increasing level of time deposits or Certificates of Deposit (CDs) as
funding sources as opposed to money market deposits. As of December 31, 2008, CDs of

10
  As noted earlier, as of the June 2008 examination, First Regional’s capital level fell to Adequately Capitalized.
This requires the FDIC to take certain mandatory actions including imposing restrictions on obtaining new or rolling
over existing brokered deposits.
                                                                                                               I-14
$100,000 or more accounted for more than $386 million of total deposits, representing an
increase of 137 percent from the prior year. CDs under $100,000 experienced a more dramatic
increase of 449 percent over the prior year and accounted for more than $714 million in deposits
in 2008. More stable money market deposits decreased significantly over the same time period.
The bank’s increased reliance on CDs made funding operations more difficult as these deposits
were less replaceable as they reached maturity, particularly in a declining interest rate
environment.

Examiners further noted at the 2008 examination that while the Bank was below the Board-
approved Leveraged Liquidity Ratio11 policy minimum of 25 percent as of October 2007, the
Bank had exceeded this level since July 2008. Examiners also noted that the funding needs of the
loan portfolio resulted in management supplementing core deposits with wholesale funds,
including the increased use of institutional time deposits, high-cost money market deposits,
brokered deposits, and to a lesser degree, Federal Home Loan Bank (FHLB) advances. The
majority of non-core deposits were solicited from institutional investors via money desk
operations, or through money market deposits paying more than 75 basis points over the Bank’s
quoted money market rate.

Examiners at the July 2009 joint examination noted that the Bank continued to rely heavily on
wholesale funding sources. Brokered deposits increased from $3 million in December 2007 to
$700 million in March 2009. According to examiners, Bank management appeared to act in bad
faith by acquiring brokered deposits just prior to signing a C&D in February 2009, after the Bank
had been officially notified to restrict the use of brokered deposits. Examiners further noted that
management considered the characterization of the brokered deposits being acquired in “bad
faith” to be unfair as it had settled for lower amounts than originally ordered and had tried to
cancel the outstanding orders after receiving the notice. In addition, examiners noted that the
Bank had a scheduled runoff of approximately $183 million in brokered deposits from
September to December 2009. These brokered deposits could not be replaced given restrictions
on such deposits due to the institution’s diminished capital levels.

Asset growth in 2008 funded by brokered deposits made it difficult for the Bank to adjust to a
declining economic landscape. First Regional did not have a contingent liquidity plan to replace
brokered deposits and manage its funding strategy during a crisis until a plan was required by a
supervisory action in 2009. At that point, the Bank was already in the midst of a liquidity crisis,
which contributed to First Regional’s ultimate failure.

The FDIC’s Supervision of First Regional
Through its supervisory activities, the FDIC identified many of the key risks at First Regional.
Concerns identified by examiners included: poor risk management practices, management’s lack
of adherence to examination recommendations, high concentrations in CRE and ADC lending
and with specific borrowers, inadequate loan underwriting practices, and asset growth funded by
brokered deposits. These concerns were noted by the FDIC and the CA DFI through

11
     A leverage ratio relates to the institution’s level of debt and its ability to service that debt with short-term assets.

                                                                                                                          I-15
examinations and supervisory actions from 2005 through 2009. From 2005 until the Bank failed
in January 2010, the FDIC and the CA DFI conducted five joint examinations and two
limited-scope visitations, and the FDIC conducted off-site reviews, including daily liquidity
monitoring beginning in 2008.

The FDIC relied principally on recommendations to address risk management deficiencies
identified by examiners. Collectively, the FDIC and the CA DFI imposed an MOU in 2005 and a
C&D in 2008. However, both actions primarily focused on BSA-related issues with risk
management deficiencies being addressed in a broad manner. A C&D with stronger language
and more specific safety and soundness provisions requiring affirmative action on the part of the
Bank to correct deficiencies was issued in February 2009.

Examiners identified risks, downgraded component and composite ratings, made
recommendations, and took several supervisory actions during the 4 years preceding the failure
of First Regional. In retrospect, it appears that a more timely and stringent supervisory response
based on the 2007 examination may have been called for given (l) the nature and extent of the
risks that existed in the Bank’s loan portfolio at the time and (2) management’s lack of
acceptance of examiner findings and failure to implement prior examination recommendations
related to those risks.

Supervisory History

The FDIC, in conjunction with the CA DFI, provided ongoing supervision of First Regional
through regular on-site risk management examinations and the FDIC conducted on-site
visitations and off-site reviews. Table 5 summarizes key information pertaining to the on-site
risk management examinations and visitations that the FDIC and the CA DFI conducted from
March 2005 until the institution failed.

Table 5: First Regional’s Examination History, March 2005 to July 2009
                          On-Site Supervisory         Supervisory Ratings
         Date                                                                          Supervisory Action Taken
                                 Effort                    (UFIRS)
                                                                                                  MOU
       03/07/05                FDIC/CA DFI                  223222/2
                                                                                                 9/29/05
       03/06/06                FDIC/CA DFI                  333232/3                              MOU*
                                                                                                   C&D
       04/23/07                FDIC/CA DFI                  334222/3
                                                                                                3/10/08**
       02/25/08                  Visitation                 No Ratings                     Limited Scope: BSA
                                                                                                   C&D
       06/09/08                FDIC/CA DFI                  444444/4
                                                                                                2/23/09***
         03/09/09                   Visitation              No Ratings              Limited Scope: Brokered Deposits
         07/13/09                 FDIC/CA DFI                555554/5
Source: ROEs for First Regional and other DSC supervisory documents.
* First Regional was still under the September 29, 2005 MOU at the March 6, 2006 examination.
** 3/10/08 C&D replaced 9/29/05 MOU.
*** 2/23/09 C&D replaced 3/10/08 C&D.

Based on the March 2005 examination, the FDIC and the CA DFI issued an MOU that was
signed on September 29, 2005 and primarily included requirements related to BSA issues.
Among other things, the MOU required First Regional to:

                                                                                                                   I-16
          Enhance its customer due diligence documentation and implement effective customer
           risk rating program procedures in order to improve monitoring of suspicious activity;
          Modify its Suspicious Activity Report (SAR) filing procedures and improve the
           quality and completeness of all SAR filings;
          Develop and implement written lending and collections policies, including an
           independent appraisal review process; and
          Perform risk segmentation analysis of the concentration of credits.

Based on the findings at the April 2007 joint examination, a C&D issued by the FDIC was
signed on March 10, 2008 that primarily addressed BSA concerns and to a lesser degree risk
management issues and administration of the Bank’s Trust Administration Department.
Requirements of the C&D included:

          Correction of all violations of law cited in the examination;
          Development, adoption, and implementation of (1) a written plan to provide guidance
           over its lending and collection functions and (2) policies to include guidance for
           limiting the concentration of credit; and
          Retention of management qualified to operate the institution in a safe and sound
           manner.

A second C&D was issued on February 23, 2009 by the FDIC and the CA DFI based on the
findings of financial deterioration and the risk management deficiencies noted in the June 2008
joint examination. This C&D replaced the one issued in 2008, and among other things, required
First Regional to:

          Raise Tier 1 Capital by $12 million and maintain Tier 1 Capital equal to or exceeding
           9.5 percent of the Bank’s total assets until September 30, 2009, and thereafter equal
           to or exceeding 10 percent of Bank’s total assets;
          Retain qualified management with certain experience and qualifications in key
           positions;
          Increase Board participation in Bank matters, including monthly meetings to cover
           operating policies, reports of income and expenses, and liquidity and interest rate
           sensitivity;
          Develop, adopt, and implement a written plan for the reduction and collection of
           delinquent loans;
          Revise, adopt, and implement written lending and collection policies to provide
           effective guidance and control over the Bank’s lending function;
          Develop, adopt, and implement a diversification plan requiring prudent
           diversification of the Bank’s loan portfolio; and
          Develop a liquidity policy with specific plans for increasing the Bank’s on-balance
           sheet liquidity to an appropriate level and reducing the Bank’s dependence on
           brokered deposits.


                                                                                             I-17
Lack of compliance with certain provisions of the C&D will be further discussed in subsequent
sections of the report. On January 29, 2010, the CA DFI closed First Regional due to critical
liquidity, poor asset quality, insufficient earnings, and inadequate capital.

Supervisory Response Related to Management and Board Oversight

Examiners noted management’s disregard or inability to comply with examination
recommendations or the spirit of the supervisory action requirements throughout the period of
our review as well as prior to 2005. At a CA DFI examination in 2004, examiners indicated that
a First Regional senior official stated that management did not plan to implement limits on
concentrations as the examination was recommending, and would only take steps to comply with
the recommendation to monitor the geographic dispersion of real estate collateral. Examiners at
the March 2005 joint examination noted that, despite recommendations in prior examinations,
the Bank had not established limits for its real estate concentrations of credit, as required by Part
365 – Real Estate Lending Standards.

As previously mentioned, an MOU was issued based on the findings of the March 2005 joint
examination. Most of the provisions were related to findings involving BSA; however, there
were also risk management requirements. Examiners at the March 2006 joint examination noted
that several provisions of the September 2005 MOU had not been implemented, and some
provisions had only been partially implemented. Examiners at the April 2007 joint examination
noted that it was the third consecutive examination where the BSA examination findings were
unsatisfactory, and the Board failed to ensure that the Bank substantially complied with the
outstanding MOU.

Further, examiners noted that First Regional’s Board disregarded diversification of risk, which is
one of the basic tenets of banking, particularly related to concentrations of credit with the two
borrowers. Examiners at the April 2007 joint examination indicated that the Board must
strengthen its supervision and direction to provide correction of deficiencies within an
appropriate time period and prevent any further deterioration. Examiners recommended that the
Board:

               Ensure that management develops procedures to correct deficiencies and
                implement recommendations provided in the examination in an appropriate
                timeframe;
               Ensure that management provides adequate staffing consisting of experienced
                personnel; and
               Review reports of management’s progress in correcting deficiencies and
                implementing recommendations, including reviewing deficiencies not yet
                corrected and explanations for the lack of correction.

As previously noted, the March 2008 C&D required the Bank to have and retain qualified
management, be assessed on its ability to comply with the requirements of the C&D, operate the
Bank in a safe and sound manner, comply with applicable laws and regulations, and restore all
aspects of the Bank to a safe and sound condition. Although management had complied with
most of the provisions in the C&D dated March 10, 2008, several provisions still required
                                                                                                 I-18
additional attention. Specific provisions not satisfactorily addressed included apparent violations
of laws and regulations, previous examination recommendations, and management’s ability to
operate the Bank in a safe and sound manner.

In response to findings related to delayed recognition of problem credits at the June 2008
examination, examiners recommended that management ensure that risks in deteriorating
markets were closely monitored and identified at the earliest opportunity in order to curtail
losses. Examiners noted that management contended that they had taken a realistic approach to
identify problem credits and did not believe that deterioration could have been detected earlier.
Further, examiners noted that management continued to ignore examination findings related to
the reduction of individual borrower concentrations and the practice of avoiding personal
guarantees to remain within the Bank’s legal lending limits.

The February 2009 C&D resulting from the June 2008 examination had more stringent and
specific requirements to address management deficiencies beyond the less specific requirement
in the previous C&D to retain qualified management and operate the Bank in a safe and sound
manner. For example, the C&D required the Bank to hire a chief credit officer with significant
appropriate lending, collection, and loan supervision experience and experience in improving a
low quality loan portfolio. Further, the Bank had to notify the FDIC and the CA DFI before
adding Board members and key senior officials and the officials were subject to the regulators’
review and approval. Finally, the C&D required increased Board participation in Bank activities,
including approving policies and holding meetings on key areas.

The FDIC was proactive and aggressive in assessing risk management practices and
downgrading the Management component and other component ratings, when appropriate. In
retrospect, more specific and stringent provisions and timeframes requiring affirmative action to
correct deficiencies and fill specific management senior official roles, similar to those in the
February 2009 C&D, may have been called for in earlier supervisory actions. Still, such steps
may not have been effective in prompting needed improvements, given management’s history of
inattentiveness to recommendations and noncompliance with supervisory action requirements.

Supervisory Response Related to Loan Concentrations

Examiners repeatedly identified and criticized segments of First Regional’s loan concentrations
at examinations during the review period. Table 6 summarizes the supervisory responses to the
CRE and ADC concentrations from 2005 through 2008.




                                                                                               I-19
Table 6: Supervisory Responses to First Regional’s CRE and ADC Concentrations,
         2005 to 2008
                                           CRE              ADC
                      Asset
Examination                           Concentration    Concentration
                      Quality
   as of                                   as a             as a               Examiner Comment
                    Component
   Date                               Percentage of    Percentage of
                      Rating
                                       Total Capital    Total Capital
  12/31/2004              2             774 percent      136 percent    Examiners noted that despite
                                                                        recommendations in prior regulatory
                                                                        ROEs, the Bank had not established
                                                                        limits for its real estate concentrations
                                                                        of credit.

                                                                        The September 2005 MOU required
                                                                        that the Bank perform risk
                                                                        segmentation with respect to
                                                                        concentrations of credit.
  12/31/2005              3              840 percent     162 percent    Examiners noted that concentration
                                                                        limits set at 100 percent for borrower
                                                                        concentrations and 750 percent for
                                                                        industry concentrations did not
                                                                        appear meaningful and recommended
                                                                        that bank management establish
                                                                        policy limits for more
                                                                        narrowly-defined segments, such as
                                                                        multi-family loans.
  12/31/2006              3              623 percent     287 percent    Examiners noted that the borrower
                                                                        relationships had been reduced, but
                                                                        were still significant.

                                                                        The March 2008 C&D required the
                                                                        Bank to implement written lending
                                                                        and collection policies to provide
                                                                        effective guidance and control over
                                                                        the Bank’s lending function, and the
                                                                        policies should include specific
                                                                        guidelines for limiting concentrations
                                                                        of credit.
   6/30/2008              4              850 percent     403 percent    Examiners noted that the Bank
                                                                        updated its loan policy in March 2008
                                                                        based on a C&D requirement. The
                                                                        updated limits were a 942 percent
                                                                        overall CRE concentration of Tier 1
                                                                        Capital plus the ALLL and a
                                                                        100 percent borrower concentration
                                                                        limit, respectively. Examiners noted
                                                                        that the limits appeared arbitrary and
                                                                        there was no description of what
                                                                        factors were used to establish the
                                                                        guidelines.
Source: ROEs and UBPRs for First Regional.




                                                                                                           I-20
As illustrated in Table 6, CRE was maintained at a high level throughout this period, and within
the CRE portfolio, ADC increased over each examination. The Asset Quality component was
rated a “2” at the March 2005 joint examination and downgraded at the next examination in 2006
due largely to risk in borrower and specific industry concentrations as well as inadequate
underwriting practices.

While the Bank had low levels of adversely classified assets and was in generally good financial
condition during the 2006 and 2007 examinations, the Asset Quality ratings of “3” indicated
recognition on the part of examiners of the risk inherent in the Bank’s practices. The April 2007
ROE noted the individual borrower and broader CRE concentrations and included
recommendations to address risks in this area. In addition, as a result of the April 2007
examination, a C&D was issued effective March 10, 2008, which included a provision that
broadly required that First Regional establish specific guidelines for limiting concentrations.

With respect to the timing of events regarding supervision of the Bank, the April 2007
examination was initiated on April 23, 2007 with an “as of” date of December 31, 2006. The exit
meeting was held with the Bank’s Board and management on June 7, 2007. The C&D resulting
from this examination was issued, effective March 10, 2008, about 9 months after the exit
meeting. During this time, the condition of the Bank and the economy continued to erode. These
circumstances, together with the previously-noted lax underwriting practices and continued high
CRE concentrations, indicate that a timelier issuance of the C&D may have afforded regulators
and the Bank additional opportunity to address concerns and issues noted and possibly limited
the loss to the DIF.

At the June 2008 joint examination, the Asset Quality component was downgraded to a “4” as
significant financial deterioration occurred at the Bank that had not been present at the previous
examinations. As a result of that examination, the FDIC and the CA DFI issued the
February 2009 C&D, which included a requirement that the Bank implement a written
diversification plan for the Bank’s loan portfolio. The diversification plan was to include, but not
be limited to: “specific goals and timeframes for a reduction in the Bank’s current concentration
in construction and land development loans.” The C&D also required the plan to “include
specific timeframes and goals for systematically reducing the amount of loans or other
extensions of credit advanced, directly or indirectly, to or for the benefit of, any borrowers in the
CRE concentrations, including construction and land development lending and large borrower
concentrations.” As with the issues associated with management, similarly specific and more
stringent language requiring affirmative action to correct deficiencies in the March 2008 C&D
may have been warranted. In that regard, a DSC official told us that, in hindsight, given
management’s risk tolerance and the Bank’s CRE and ADC loan concentrations, requiring the
Bank to establish a plan earlier to reduce overall concentration levels and/or maintain higher
capital levels to support the high concentrations may have been prudent.




                                                                                                 I-21
Supervisory Response Related to Loan Underwriting

Examiners noted examples of poor underwriting in the March 2006 examination report,
including eased underwriting standards and inadequate cash flow analyses. Examiners at the
April 2007 examination continued to note underwriting issues, including credit approval
memoranda that lacked discussion of project status and detailed analysis as to how a borrower
would service the debt on those properties exhibiting insufficient cash flow. Further, examiners
noted that not taking personal guarantees from the principals in the two large borrower
relationships was an unsafe and unsound practice given the degree of exposure in those
relationships. Examiners recommended that management perform detailed cash flow analyses for
guarantors whose financial strength was a primary reason for extending credit.

Examiners at the June 2008 examination noted that adverse classifications had resulted from
relaxed lending practices, poor credit monitoring, and the deterioration in the real estate market.
As previously discussed, the February 2009 C&D required that the Bank revise, adopt, and
implement a written lending policy that would provide effective guidance over the Bank’s
lending function. Part of those requirements called for obtaining complete documentation,
realistic repayment terms, and current credit information adequate to support the outstanding
indebtedness of each borrower. Such documentation was to include current financial
information, profit and loss statements or copies of tax returns, and cash flow projections.

Policy updates made by management in response to the C&D proved ineffective as the Bank’s
financial condition was critical at the July 2009 examination. To have been more effective, the
February 2009 C&D requirements should have been imposed earlier.


Supervisory Response Related to Credit Administration

Credit administration issues also played a role in the failure of the institution, and the FDIC
included comments and recommendations in earlier examination reports related to this area, in
addition to the severe ALLL underfunding and other credit administration issues noted at the
final two examinations.

Examiners at the March 2005 examination indicated that the Senior Loan Committee approved
performing stress analyses for real estate loans based on recommendations in a prior CA DFI
examination, but the analyses only tested a 100-basis point increase in interest rates. Examiners
noted that management should have included a stress test of 200 basis points.

At the March 2006 joint examination, examiners noted that concerns regarding concentrations
were magnified as concentration levels had increased even further without commensurate
improvements in risk monitoring systems, implementation of adequate controls, or the
establishment of concentration limits. As discussed earlier, examiners had also noted at this
examination that underwriting standards were eased.

Examiners further noted at the March 2006 examination that while they considered the ALLL
methodology to be accurate, management should ensure the ALLL was restored to an adequate
                                                                                                I-22
level due to the downgrade at the examination to Special Mention of a substantial portion of the
two borrower relationships. Examiners at the April 2007 examination noted that the ALLL
methodology was not in compliance with new regulatory guidance. A senior bank official noted
that management was enhancing the ALLL analysis program to provide a more appropriate level
and that the final program would be in place within months after the completion of that
examination.

Examiners at the June 2008 joint examination noted that the ALLL methodology would need to
be revised to reflect current loan loss rates and applicable qualitative factors for various CRE
loan categories, in accordance with the Policy Statement on ALLL. Examiners further noted that
credits did not appear to have been properly risk-rated in a timely manner. Deterioration in the
economy played a role in the decline in asset quality seen at this examination, and could have
been viewed as another factor regarding why these credits were having problems. However,
examiners further noted that management contended that they had taken a realistic approach to
identifying problem credits and did not believe that deterioration could have been detected
earlier.

Examiners also noted that management committed to appropriately fund the ALLL and
contingency reserve, but they were unwilling to commit to the amount of deficiency noted during
the examination until they had a better understanding of the rationale for all of the reserve factors
applied in the calculation. Examiners noted that management was furnished with the reserve
factors over 2 weeks prior to a Board meeting, and various opportunities for discussion were
provided.

The February 2009 C&D required the Bank to maintain adequate capital as well as a fully-
funded ALLL. In addition, the C&D required that the Bank recognize any necessary provision
expense needed to increase the Bank’s ALLL to an adequate level to compensate for the
deterioration in the economic and real estate market, and to compensate for the various types of
CRE loan concentrations noted in the June 2008 examination. The C&D also required that the
Bank develop a written plan for the reduction and collection of classified assets and delinquent
loans. The requirements of the February 2009 C&D were comprehensive and sufficient based on
the 2008 examination, which was the first time when major problems with the Bank’s ALLL
methodology were detected.

Examiners at the July 2009 examination noted that the ALLL was underfunded by a minimum of
$69.9 million and management continued to defer recognition of developing problems in a
timely manner, which represented a repeat examination issue. The resulting adjustment from the
underfunding of the ALLL directly impacted the Bank’s earnings and caused a decline in capital.
As previously mentioned, on-site review of more current asset quality information may have
been useful following the 2007 examination, through a visitation, given the Bank’s high
concentration levels and slow recognition of problems. Such a review may have enabled
examiners to identify and address the extent of risk in First Regional’s loan portfolio earlier. As
discussed earlier, the FDIC did conduct an on-site visitation in February 2008, but BSA issues,
not asset quality, were the focus of that review.


                                                                                                 I-23
Supervisory Response Related to First Regional’s Funding Strategy

The ability of the FDIC to criticize or have an impact on First Regional’s funding strategy was
limited, as the increased reliance on brokered deposits largely happened between examinations in
April 2007 and June 2008.

Examiners at the April 2007 examination noted that the net non-core funding dependence ratio
was 11.31 percent. By year-end 2007, the ratio had increased to 15 percent, and then
dramatically climbed at year-end 2008 to 43 percent. Examiners at the June 2008 examination
rated Liquidity a “4” and noted that the liquidity position was inadequate and required close
supervision by bank management. Liquidity was maintained at a high cost and relied
significantly on non-core funding sources that had the potential to become unavailable if the
Bank continued to have a weakened capital position. The February 2009 C&D, based on the
findings of the June 2008 examination, stipulated that the Bank should implement a Liquidity
Policy that would include specific plans to reduce the Bank’s reliance on volatile funding
sources, including brokered deposits.

Table 7: First Regional’s Deposits and FHLB Borrowings,
         Years Ending 2005 to 2009
                                                              Time Deposits of
                                             Brokered                                      FHLB
Period Ending Core Deposits                                     $100,000 or
                                             Deposits                                    Borrowings
                                                                   More*
                         ($000s)              ($000s)             ($000s)                 ($000s)
     Dec-05             1,333,190              2,086               90,715                 210,000
     Dec-06             1,506,141              4,669              122,823                 190,000
     Dec-07             1,577,236              2,968              163,101                 135,000
     Dec-08             1,764,234             650,617             386,653                  60,000
     Dec-09             1,271,192             249,460             393,259                 214,000
Source: UBPRs for First Regional.
*Time Deposits of $100,000 or more can sometimes be contained within brokered deposits

The economic downturn negatively affected asset quality and harmed capital ratios. The Bank’s
liquidity crisis, which ultimately caused the failure of the Bank, was due to the shift in funding
strategy to use more non-core deposits, specifically brokered deposits to fund asset growth and
replace core deposits in 2008, as illustrated in Table 7. These non-core deposits were not
replaceable as declining capital ratios prevented the Bank from accepting new brokered deposits
or rolling over existing ones in 2009. The FDIC’s response to First Regional’s liquidity situation
was adequate, as First Regional’s liquidity position appeared reasonable at the 2007 examination,
including a non-core funding dependence ratio that was lower than peer. Subsequently, however,
First Regional fueled asset growth using brokered deposits even when economic and bank
conditions had deteriorated. The February 2009 C&D properly required the Bank to make plans
to lower its reliance on brokered deposits.




                                                                                                      I-24
Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least possible
long-term cost to the DIF. Part 325 implements PCA requirements by establishing a framework
for taking prompt corrective action against insured state-chartered nonmember banks that are not
adequately capitalized. The FDIC is required to closely monitor the institution’s compliance with
its capital restoration plan, mandatory restrictions defined under section 38(e), and discretionary
safeguards imposed by the FDIC (if any) to determine if the purposes of PCA are being
achieved. Based on the supervisory actions taken with respect to First Regional, we determined
that the FDIC properly implemented applicable PCA provisions of section 38.

Table 8 shows First Regional’s PCA categories as of the examination dates covered by our
review. Notwithstanding a brief period in 2006, the table illustrates that First Regional was
considered Well Capitalized for PCA purposes until the 2008 joint examination, when the
institution was already at serious risk of failure.

Table 8: PCA Capital Categories for First Regional,
         2005 to 2009
     Examination Date                     Capital Category

           3/07/2005                        Well Capitalized

           3/06/2006                    Adequately Capitalized

           4/23/2007                        Well Capitalized

           6/09/2008                    Adequately Capitalized

           7/13/2009                       Undercapitalized
Source: ROEs and DSC Supervisory Documentation.

The June 2008 examination concluded that the Bank’s capital levels were unsatisfactory, and
examiners downgraded the Capital component rating to a “4”. As of June 30, 2008, reported
Tier 1 Leverage, Tier 1 Risk-Based, and Total Risk-Based Capital ratios were 9.58 percent,
8.85 percent, and 10.10 percent, respectively. Also, the Total Risk-Based Tier 1 Capital leverage
ratio totaled 10.10 percent, a decrease from 12.04 percent from the prior examination. The
examiners noted that the Total Risk-Based Capital ratio would drop to 8.98 percent as a result of
the ALLL being underfunded and additional Loss classifications of $44.1 million and the Bank
would be considered Adequately Capitalized.




                                                                                                I-25
A C&D issued on February 23, 2009 required First Regional to, among other things:

          Raise Tier 1 Capital by $12 million and maintain Tier 1 Capital equal to or exceeding
           9.5 percent of the Bank’s total assets until September 30, 2009, and thereafter
           maintain Tier 1 capital equal to or exceeding 10 percent of the Bank’s total assets;
           and
          Develop a plan to meet and thereafter maintain the minimum risk-based capital
           requirement as described in Appendix A to Part 325 of the FDIC Rules and
           Regulations.

Based on the 2008 ROE, the FDIC issued a PCA notification letter on January 21, 2009,
notifying First Regional that it was Adequately Capitalized and subject to certain mandatory
actions, including a restriction on obtaining new or rolling over existing brokered deposits.

Examiners at the July 2009 examination noted capital to be deficient and, after adjusting for an
underfunded ALLL, the Bank was considered Undercapitalized for PCA purposes. Examiners
also noted the Board-approved capital plan of April 2009 that included a reduction in the Bank’s
asset size to improve the Bank’s capital needed to be revised due to the financial condition of the
institution. The Board was exploring many other possible options to augment capital, including
selling the Bank.

The FDIC issued another PCA notification letter on September 17, 2009, notifying First
Regional that, based on the July 2009 examination, the Bank was Undercapitalized for PCA
purposes and that section 38 required the FDIC to take certain mandatory actions when an
institution becomes Undercapitalized, including the requirement of a capital restoration plan that
was due by November 9, 2009. In response, First Regional submitted a capital restoration plan,
that was received by the FDIC on November 6, 2009.

An FDIC memorandum noted that this capital restoration plan was rejected because it was
dependent on several key strategic initiatives that had not materialized, and it lacked a definitive
timeline of when the Bank would return to Adequately Capitalized. The plan identified four
potential transactions to address the Bank’s capital needs. However, no definitive agreement was
signed, and the plan did not indicate when any transaction was expected to materialize. The
memorandum further noted that the plan needed to be concrete and specific regarding the steps
and levels of capital to be raised and requested the Bank submit a new or revised capital
restoration plan with the steps management would take to become Adequately Capitalized.

First Regional was unable to solve its liquidity crisis or raise the required capital, and on
January 29, 2010, the CA DFI closed the Bank due to failing liquidity, declining capital, poor
and declining asset quality, and insufficient earnings, and named the FDIC as receiver.




                                                                                                 I-26
                                                                                        Appendix 1

Appendices




                                 Objectives, Scope, and Methodology


Objectives

We performed this performance audit to satisfy the requirements of section 38(k) of the FDI Act,
and as amended by the Financial Reform Act, which provides, in general, that if a deposit
insurance fund incurs a material loss with respect to an insured depository institution, the
Inspector General of the appropriate federal banking agency shall prepare a report to that agency
reviewing the agency’s supervision of the institution. The FDI Act requires that the report be
completed within six months after it becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure and
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution,
including implementation of the PCA provisions of section 38.

We conducted this performance audit from May 2010 to August 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained, as
described in the Scope and Methodology section, provides a reasonable basis for our findings
and conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of First Regional from March 2006 until its failure
on January 29, 2010, as well as review of previous supervisory documentation when relevant to
the issues relating to the bank’s failure. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and utilized the following
techniques:

                Analyzed examination and visitation reports prepared by FDIC and CA DFI examiners
                 from 2006 to 2009.

                Reviewed the following documentation:

                      Financial institution data and correspondence maintained at the DSC’s San
                       Francisco Regional Office and Los Angeles Field Office, as provided to KPMG by
                       DSC.

                      Reports prepared by the Division of Resolutions and Receiverships (DRR) and DSC
                       relating to the Bank’s closure.


                                                                                                   I-27
                                                                                     Appendix 1


              Pertinent DSC policies and procedures.

        Interviewed the relevant FDIC officials who had supervisory responsibilities pertaining to
         First Regional, which included DSC examination staff in the San Francisco Region.

        Interviewed appropriate officials from the CA DFI to discuss the historical perspective of
         the institution, its examinations, and other activities regarding the state's supervision of
         the Bank.

        Researched various banking laws and regulations, including state laws.

KPMG relied primarily upon the materials provided by the FDIC OIG and DSC, including
information and other data collected during interviews. KPMG did not perform specific audit
procedures to ensure the information and data were complete and accurate. KPMG is, however,
aware that Circular 12000.1, Cooperation with the Office of Inspector General, dated September
28, 2007, requires that all FDIC employees, contractors, and subcontractors cooperate with the
OIG in order for the OIG to carry out its statutory mandate. To that end, all employees,
contractors, and subcontractors must:

     (1) Provide authorized representatives of the OIG immediate and unrestricted access to all
Corporation, receivership, contractor, and subcontractor personnel, facilities, equipment, hard
copy and electronic records, files, information systems, and other sources of information when
requested during the course of their official duties.

     (2) Provide authorized representatives of the OIG immediate and unrestricted access to any
records or material available to any part of the FDIC.

We conducted interviews with DSC and CA DFI personnel to gain a better understanding of
decisions made regarding the supervisory approach to the institution and to clarify information
and conclusions contained in reports of examination and other relevant supervisory
correspondence between the FDIC and the Bank. KPMG relied on the information provided in
the interviews without conducting additional specific audit procedures to test such information.

Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs, and
interviews of examiners to understand First Regional’s management controls pertaining to causes
of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system controls
were not significant to the audit objectives and, therefore, did not evaluate the effectiveness of
information system controls. We relied on our analysis of information from various sources,



                                                                                                 I-28
                                                                                    Appendix 1

including ROEs, correspondence files, and testimonial evidence to corroborate data obtained
from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs Executive
Branch agencies to develop a customer-focused strategic plan, align agency programs and
activities with concrete missions and goals, and prepare and report on annual performance plans.
For this material loss review, we did not assess the strengths and weaknesses of DSC’s annual
performance plan in meeting the requirements of the Results Act because such an assessment is
not part of the audit objectives. DSC’s compliance with the Results Act is reviewed in the OIG’s
program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine whether the
FDIC had complied with provisions of PCA and limited tests to determine compliance with
certain aspects of the FDI Act. The results of our tests are discussed, where appropriate, in this
report. Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes, trends, and
common characteristics of FDIC-supervised financial institution failures that had resulted in a
material loss to the DIF. The memorandum also indicated that the OIG planned to provide more
comprehensive coverage of those issues and make related recommendations, when appropriate.
Since May 1, 2009, the OIG has issued additional MLR reports related to failures of FDIC-
supervised institutions and these reports can be found at www.fdicig.gov. In June 2010, the OIG
initiated an audit, the objectives of which are to (1) determine the actions that the FDIC has taken
to enhance its supervision program since May 2009, including those specifically in response to
the May 2009 memorandum, and (2) identify trends and issues that have emerged from
subsequent MLRs.

In addition, with respect to more comprehensive coverage of specific issues, in May 2010, the
OIG initiated an evaluation of the role and federal regulators’ use of the Prompt Regulatory
Action provisions of the FDI Act (section 38, PCA and section 39, Standards for Safety and
Soundness) in the banking crisis.




                                                                                                 I-29
                                                                                       Appendix 2


                                   Glossary of Terms


          Term                                                Definition
Adversely Classified Assets   Assets subject to criticism and/or comment in an examination report.
                              Adversely classified assets are allocated on the basis of risk (lowest to
                              highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for Loan and        The ALLL is an estimate of uncollectible amounts that is used to reduce
Lease Losses (ALLL)           the book value of loans and leases to the amount that is expected to be
                              collected. It is established in recognition that some loans in the
                              institution’s overall loan and lease portfolio will not be repaid. Boards
                              of directors are responsible for ensuring that their institutions have
                              controls in place to consistently determine the allowance in accordance
                              with the institutions' stated policies and procedures, generally accepted
                              accounting principles, and supervisory guidance.
Call Report                   Consolidated Reports of Condition and Income (also known as the Call
                              Reports) are reports that are required to be filed by every national bank,
                              state member bank, and insured nonmember bank pursuant to the
                              Federal Deposit Insurance Act. These reports are used to calculate
                              deposit insurance assessments and monitor the condition, performance,
                              and risk profile of individual banks and the banking industry.

Cease and Desist Order        A formal enforcement action issued by financial institution regulators to
(C&D)                         a bank or affiliated party to stop an unsafe or unsound practice or
                              violation. A C&D may be terminated when the Bank’s condition has
                              significantly improved and the action is no longer needed or the Bank
                              has materially complied with its terms.

Concentration                 A concentration is a significantly large volume of economically related
                              assets that an institution has advanced or committed to a certain
                              industry, person, entity, or affiliated group. These assets may, in the
                              aggregate, present a substantial risk to the safety and soundness of the
                              institution.

FDIC’s Supervision            The FDIC’s supervision program promotes the safety and soundness of
Program                       FDIC-supervised institutions, protects consumers’ rights, and promotes
                              community investment initiatives by FDIC-supervised institutions. DSC
                              (1) performs examinations of FDIC-supervised institutions to assess
                              their overall financial condition, management policies and practices
                              (including internal control systems), and compliance with applicable
                              laws and regulations and (2) issues related guidance to institutions and
                              examiners.
Material Loss                 As defined by section 38(k)(2)(B) of the FDI Act, and as amended by
                              the Financial Reform Act, for the period beginning January 1, 2010 and
                              ending December 31, 2011, a material loss is defined as any estimated
                              loss in excess of $200 million.



                                                                                                     I-30
                                                                                     Appendix 2



                                  Glossary of Terms


         Term                                              Definition
Prompt Corrective Action     The purpose of PCA is to resolve the problems of insured
(PCA)                        depository institutions at the least possible long-term cost to the
                             DIF. Part 325 of the FDIC Rules and Regulations, 12 Code of
                             Federal Regulations, section 325.101, et seq, implements section
                             38, Prompt Corrective Action, of the FDI Act, 12 United States
                             Code section 1831o, by establishing a framework for taking
                             prompt corrective supervisory actions against insured nonmember
                             banks that are less than adequately capitalized. The following
                             terms are used to describe capital adequacy: Well Capitalized,
                             Adequately Capitalized, Undercapitalized, Significantly
                             Undercapitalized, and Critically Undercapitalized.
Special Mention Assets       A Special Mention asset has potential weaknesses that deserve
                             management’s close attention. If left uncorrected, these potential
                             weaknesses may result in deterioration of the repayment prospects
                             for the asset or in the institution’s credit position at some future
                             date. Special Mention assets are not adversely classified and do not
                             expose an institution to sufficient risk to warrant adverse
                             classification.
Uniform Bank Performance     The UBPR is an analysis of financial institution financial data and
Report (UBPR)                ratios that includes extensive comparisons to peer group
                             performance. The report is produced by the Federal Financial
                             Institutions Examination Council for the use of banking
                             supervisors, bankers, and the general public and is produced
                             quarterly from Call Report data submitted by banks.

Uniform Financial            Financial institution regulators and examiners use the Uniform
Institutions Rating System   Financial Institutions Rating System (UFIRS) to evaluate a bank’s
(UFIRS)                      performance in six components represented by the CAMELS
                             acronym: Capital adequacy, Asset quality, Management practices,
                             Earnings performance, Liquidity position, and Sensitivity to
                             market risk. Each component, and an overall composite score, is
                             assigned a rating of 1 through 5, with 1 having the least regulatory
                             concern and 5 having the greatest concern.




                                                                                                    I-31
                                                                           Appendix 3

                                     Acronyms

ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
BSA      Bank Secrecy Act
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to Market Risk
CA DFI   California Department of Financial Institutions
CD       Certificate of Deposit
CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
GAGAS    Generally Accepted Government Auditing Standards
LTV      Loan-to-Value
MOU      Memorandum of Understanding
OIG      Office of Inspector General
PCA      Prompt Corrective Action
ROE      Report of Examination
SAR      Suspicious Activity Report
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                                                                        I-32
               Part II

OIG Evaluation of Management Response
OIG Evaluation of Management Response
We issued a draft of this report on August 10, 2010. The Division of Supervision and
Consumer Protection (DSC) regional management provided us with additional
information for our consideration, and we added the information to our report. On
August 27, 2010, the Director, DSC, provided a written response to the draft report. That
response is provided in its entirety on page II-2 of this report.

In its response, DSC reiterated the OIG’s conclusions regarding the causes of First
Regional’s failure and cited several supervisory activities, discussed in the report, that
were undertaken to address risks at the institution prior to its failure. In addition, DSC
stated that a financial institution letter was issued in 2009 on The Use of Volatile or
Special Funding Sources by Financial Institutions That Are in a Weakened Condition, to
enhance DSC’s supervision of institutions, such as First Regional, with concentrated
CRE/ADC lending and reliance on volatile non-core funding.




                                                                                       II-1
                                CORPORATION COMMENTS



Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990              Division of Supervision and Consumer Protection

                                                                       August 27, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, Material Loss Review of First
                 Regional Bank, Los Angeles, CA (Assignment No. 2010-040)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of First
Regional Bank, Los Angeles, California (First Regional) which failed on January 29, 2010. This
memorandum is the response of the Division of Supervision and Consumer Protection (DSC) to
the OIG’s Draft Report (Report) received on August 10, 2010.

First Regional failed because the Board of Directors and management provided ineffective
oversight, including weak risk management practices, inadequate loan underwriting, poor credit
administration, violations of laws and regulations, and lack of response to examination
recommendations. First Regional’s significant concentration in commercial real estate (CRE),
multi-family residential loans, and acquisition, development, and construction (ADC) loans with
increased reliance on wholesale funding sources led to large losses and capital and liquidity
deficiencies. The State of California Department of Financial Institutions (CA DFI) closed First
Regional due to poor asset quality, insufficient earnings, critical liquidity problems, and
inadequate capital to sustain operations.

From 2005 through 2009, the FDIC and CA DFI jointly conducted five full scope examinations
and two visitations. The FDIC also conducted offsite reviews and monitoring activities. First
Regional was under informal or formal enforcement actions on a continuing basis from January
2005 through its failure related to many aspects of its operations. At the joint examination in
April 2007, examiners downgraded the management component to a “4” rating, based on the
failure of the Board and officers to comply with provisions of the existing Memorandum of
Understanding and their disregard for the risks associated with the extension of credit to two
principal borrowers that resulted in excessive CRE concentrations. During 2008, the Board and
management failed to comply with formal enforcement actions and continued to originate ADC
loans with unacceptable large borrower concentrations in a rapidly declining real estate market.
At the June 2008 joint examination, examiners downgraded First Regional to a composite “4”
rating and to a composite “5” rating in July 2009. Formal orders to Cease and Desist were issued
in March 2008 and February 2009.

DSC issued a Financial Institution Letter in 2009 on The Use of Volatile or Special Funding
Sources by Financial Institutions That Are in a Weakened Condition to enhance our supervision
of institutions, such as First Regional, with concentrated CRE/ADC lending and reliance on
volatile non-core funding.

Thank you for the opportunity to review and comment on the Report.

                                                                                                   II-2
